SUPREME COURT OF THE UNITED STATES

VAUGHN LEWIS,
Petitioner,

)
)
)
v.
)
)
UNITED STATES OF AMERICA, )
Respondent.
)

Docket No. 20-7387

PETITIONER’S NOTICE OF WAIVER OF REPLY
Now comes Petitioner Vaughn Lewis to notify the court that he does not intend to file a Reply to
the Brief for the United States in Opposition to Petition for a Writ of Certiorari filed on May 7,
2021 in the above-captioned case. Petitioner additionally waives the fourteen day waiting period
prior to distribution pursuant to Supreme Court Rule 15.5. Thank you for your attention to this
matter.

N

Respectfully Submitted,
Inga S. Bernstein
Counsel of Record for Petitioner
Zalkind Duncan & Bernstein LLP
65A Atlantic Ave
Boston, MA 02110
(617) 742-6020

May 14, 2021

PROOF OF SERVICE
I, Inga S. Bernstein, do swear or declare that on this date, May 14, 2021, as required by Supreme
Court Rule 29 I have served the enclosed Notice of Waiver of Reply on reach party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United Stated mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Executed on May 14, 2021

N

I declare under the pains and penalties of perjury that the foregoing is true and correct.

Inga S. Bernstein
Attorney for Petitioner

